No. 20-98
IN THE

Supreme Court of the United States
THOMAS WOOD, INDIVIDUALLY AND AS PERSONAL
REPRESENTATIVE OF THE ESTATE OF PHILIP TALMAGE
WOOD,
Petitioner,
v.
THE BOEING CO.,
Respondent.
On Petition for a Writ of Certiorari to the United States
Court of Appeals for the District of Columbia Circuit
BRIEF OF AMICI CURIAE LEGAL SCHOLARS
IN SUPPORT OF PETITIONER

AMENDED CERTIFICATE OF COMPLIANCE
Pursuant to Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Legal Scholars in Support of Petitioners contains 5,354 words, inclusive of
the cover, the statement of intertest of amici curiae, the summary of argument, the
argument, the conclusion, and the appendix, but excluding all other parts of the
document, which are exempted by Supreme Court Rule 33.1(d).
Signed on September 8, 2020.
/s/ James A. Hemphill
James A. Hemphill
Counsel for Amici Curiae Legal Scholars

3635955.v1

